No. ________________
IN THE
SUPREME COURT OF THE UNITED STATES

OCTOBER TERM, 2020
JAMAR GARRISON
PETITIONER,
v.
UNITED STATES OF AMERICA
RESPONDENT.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Pursuant to Title 18, United States Code, ยง3006A(d)(7) and Rule 39 of this
Court, Petitioner Jamar Garrison asks leave to file the attached Petition for Writ of
Certiorari to the United States Court of Appeals for the Sixth Circuit without
prepayment of fees or costs and to proceed in forma pauperis.
Petitioner was represented in the district court and on appeal to the Sixth
Circuit Court of Appeals by trial and appellate counsel appointed pursuant to Title
18, United States Code, ยง3006A and is represented in this Court by the undersigned
appointed counsel.
Respectfully submitted,
GUREWITZ & RABEN, PLC
By:

DATE: March 25, 2021

/s/Margaret Sind Raben (P39243)
Attorney for Petitioner Garrison
333 W. Fort Street, Suite 1400
Detroit, MI 48226
(313) 628-4708

